                                                            OCCUPATIONAL SAFETY AND
                                                            HEALTH ADMINISTRATION


              Office of Inspector General—Office of Audit




                                                            FEDERALLY OPERATED WHISTLEBLOWER
                                                            PROTECTION PROGRAM COST




                                                                               Date Issued:   January 20, 2012
02-A12-345-67-890                                                           Report Number:    22-12-014-10-105
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 

Request # 1: Cost of the federally operated Whistleblower Program for FY

2010 and the 9-month period ended June 30, 2011.................................................... 2
 

Request #2: Extrapolated costs for the federally operated Whistleblower 

Program for FY 2011 assuming whistleblower investigators operated with

an average caseload of eight, seven, and six cases .................................................. 3
 

Exhibits 
        Exhibit 1 Federally Operated Whistleblower Program Total Compiled Cost......... 7
 
        Exhibit 1a Federally Operated Whistleblower Program Compiled Salary 

           and Personnel Benefits ................................................................................... 9
 
        Exhibit 1b Federally Operated Whistleblower Program Compiled Travel 

           Costs ............................................................................................................. 11
 
        Exhibit 1c Federally Operated Whistleblower Program Compiled Working 

           Capital Fund Costs........................................................................................ 13
 
        Exhibit 1d Federally Operated Whistleblower Program Compiled Other 

           Non-Personnel Costs .................................................................................... 15
 
        Exhibit 2 Extrapolation of Federally Operated Whistleblower Program 

           Costs FY 2011 .............................................................................................. 17
 

Appendices 
        Appendix A Background ..................................................................................... 21
 
        Appendix B Objectives, Scope, Methodology, and Criteria ................................ 25
 
        Appendix C Acronyms and Abbreviations .......................................................... 29
 
        Appendix D Request Letter from Congressman Miller and 

           Congresswoman Woolsey............................................................................. 31
 
        Appendix E OSHA Response to Draft Report .................................................... 33
 
        Appendix F Acknowledgements ......................................................................... 35
 




                                                                                              OSHA Whistleblower Cost
                                                                                            Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        OSHA Whistleblower Cost
                                      Report No. 22-12-014-10-105
                                                        U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




January 20, 2012

                                 Assistant Inspector General’s Report



David Michaels, PhD, MPH
Assistant Secretary
  for Occupational Safety and Health
U.S. Department of Labor
200 Constitution Ave, NW
Washington, DC 20210

The Honorable George W. Miller, then Chairman of the Committee on Education and
Labor, and the Honorable Lynn Woolsey, then Chairwoman of the Subcommittee on
Workforce Protections, requested comprehensive cost information for fiscal year
(FY) 2010 on the Occupational Safety and Health Administration’s (OSHA)
Whistleblower Protection Program (Whistleblower Program). The request referenced a
prior Office of Inspector General (OIG) report1 and stated, “The report highlighted the
excessive caseload imposed on OSHA whistleblower investigators due to
understaffing.” The request also noted, “In addition to assuring accountability over
appropriated funds, a solid baseline cost estimate is now imperative because OSHA is
actively exploring the idea of restructuring the program.” Specifically, Congressman
Miller and Congresswoman Woolsey requested that the Office of the Inspector General:

      1. Compile and report the direct and indirect cost of operating the Whistleblower
         Program during FY 2010, and

      2. Extrapolate what the direct and indirect cost of operating the Whistleblower
         Program during FY 2010 would have been had whistleblower investigators
         operated with an average caseload of six to eight open cases.

To ensure our results were as current as possible, we compiled the cost of operating
the Whistleblower Program during FY 2010 and the 9-month period ended
June 30, 2011, and used the more current period of FY 2011 when extrapolating the
cost of operating the Whistleblower Program with an average investigator caseload of
six to eight cases, as requested by Mr. Miller and Ms. Woolsey.

The OIG conducted this work based on this specific Committee request and does not
have an opinion as to what the specific funding or staffing for this program should be.

1
    “Complainants Did Not Always Receive Appropriate Investigations Under the Whistleblower Protection Program” -
    Report number 02-10-202-10-105, issued September 30, 2010.

                                                                                      OSHA Whistleblower Cost
                                                          1                         Report No. 22-12-014-10-105
                                          U.S. Department of Labor – Office of Inspector General



Request #1: Cost of the federally operated Whistleblower Program for FY 2010
and the 9-month period ended June 30, 2011

Compiled costs for the federally operated Whistleblower Program totaled $14.4 million
for FY 2010 and $12.2 million for the 9-month period ended June 30, 2011. For the
details of the compiled costs, see Exhibit 1 through 1d of this report.

The compilation includes National and Regional office costs for salary and personnel
benefits; travel; working capital fund; and other non-personnel costs (rent, Department
of Homeland Security surcharge, postage, telecommunication, supplies and materials,
and miscellaneous services). The compilation also includes costs associated with the
Solicitor of Labor’s office (SOL), which provides legal support to OSHA for whistleblower
investigations. The compilation includes the cost of the federally operated Whistleblower
Program only. It does not include Whistleblower Program costs incurred by 27 states
that operate their own worker safety and health programs under grants from the
Department of Labor. Twenty-two states conduct all whistleblower investigations under
Section 11(c) of the Occupational Safety and Health Act, and five of the states provide
11 (c) investigations for public sector employees only. OSHA could not provide the
costs incurred by these states, because it does not separately identify state grant funds
based on specific programs, and the states do not separately report their use of grant
funds by specific programs. The federally operated Whistleblower Program
encompasses Section 11(c) investigations in all other states, as well as investigations of
complaints filed under the 20 other whistleblower statutes within OSHA’s jurisdiction in
all states.

To compile these costs, we obtained information on salaries and benefits from the
Department’s payroll system. We obtained travel, working capital fund, other
non-personnel and other direct costs from the Department’s financial management
system and OSHA national and regional office records. Legal costs were identified by
SOL totaling $1.85 million for FY 2010 and $1.82 million for the 9-month period ended
June 30, 2011.

OSHA did not separately track Whistleblower Program expenses for FY 2010 or for the
9-month period ended June 30, 2011. OSHA’s costs for operating the Whistleblower
Program were included with all other costs of operating its Enforcement Directorate.
Accordingly, we compiled the federally operated Whistleblower Program costs from the
best information available.

We performed certain procedures to determine the completeness and reasonableness
of those costs, including performing analytical procedures and making inquiries of
OSHA personnel. However, these procedures are substantially less in scope than a
financial statement audit, the objective of which is the expression of an opinion
regarding the fair presentation of the financial information presented taken as whole.
Accordingly, we do not express such an opinion. However, based on the procedures we
performed, we are not aware of any material modifications that should be made to the
financial information presented in Exhibit 1 through 1d.

                                                                     OSHA Whistleblower Cost
                                            2                      Report No. 22-12-014-10-105
                                           U.S. Department of Labor – Office of Inspector General




Request #2: Extrapolated costs for the federally operated Whistleblower Program
for FY 2011 assuming whistleblower investigators operated with an average
caseload of eight, seven, and six cases

The requestors asked that we extrapolate what the cost of operating the Whistleblower
Program would have been had whistleblower investigators operated with an average
caseload of six to eight cases. It is imperative to reiterate that the OIG does not have an
opinion as to what the funding or staffing levels should be for this program.

Based on the total number of cases in FY 2011 and our extrapolation of costs, reducing
the caseload to 8 per investigator would have required 49 additional investigators and
increased funding by approximately $6.5 million. Reducing the average caseload to 7
would have required an additional 53 investigators and increased funding by
approximately $7 million. Finally, reducing the caseload to 6 would have required an
additional 58 investigators and additional funding by approximately $7.7 million. The
extrapolation shows that in order to reach a caseload of 6 per investigator, the
Whistleblower Program would have needed a total of 146 investigators in addition to the
10 regional supervisory investigators and 5 national office staff. For details of the
computation of extrapolated costs, see Exhibit 2.

The extrapolation of additional full time equivalent (FTE) investigator positions to meet
the various case load levels specified by the requestors was based on the following
assumptions:

   1. The number of cases OSHA receives remains the same as the number received
      in FY 2011.

   2. The distribution of case types among the 21 different whistleblower statutes
      under OSHA’s jurisdiction remains the same as it was in FY 2011.

   3. The distribution of case completion types (e.g., withdrawn, dismissed, settled, or
      merit) remains the same as it was in FY 2011.

   4. No additional whistleblower statutes are added to OSHA’s jurisdiction.

   5. All investigators, including those newly hired, would be able to complete the
      same average number of cases.

   6. No additional OSHA staff would be needed in the national office and no
      additional supervisory investigators would be needed in the regional offices.

   7. SOL costs would remain at a constant level based on costs for the 9-month
      period ended June 30, 2011. We made this assumption because there was
      insufficient information to determine the effect an increase in the rate of



                                                                      OSHA Whistleblower Cost
                                             3                      Report No. 22-12-014-10-105
                                           U.S. Department of Labor – Office of Inspector General



      completing whistleblower case investigations would have on the need for legal
      assistance.

   8. Training costs would remain at a constant level based on cost for the 9-month
      period ended June 30, 2011. We made this assumption because there was
      insufficient information to determine the amount of additional training costs that
      may be required for new investigators.

   9. The average time expended on a case remains the same as it was in 

      FY 2011. 


The assumptions are discussed in Appendix B of this report. Any changes in these
assumptions could have a material effect on the extrapolated costs.

We conducted this performance audit using generally accepted government auditing
standards for performance audits. Our objectives, scope, methodology, and criteria are
detailed in Appendix B.

In response to our draft report, the Assistant Secretary for Occupational Safety and
Health stated that OSHA concurred with the report and the extrapolation of the cost
data. OSHA’s response is included as Appendix E to this report.

We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                      OSHA Whistleblower Cost
                                            4                       Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                                        OSHA Whistleblower Cost
              5                       Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        OSHA Whistleblower Cost
              6                       Report No. 22-12-014-10-105
                                              U.S. Department of Labor – Office of Inspector General



                                                                                        Exhibit 1
Federally Operated Whistleblower Program Total Compiled Cost

                                                                                        9 Months
                                                                                         Ended
                                                                      FY 2010          June 2011

Salary (see Exhibit 1a)                                             $ 8,132,810        $ 6,724,855
Benefits (see Exhibit 1a)                                             2,270,237          1,924,543
Travel (see Exhibit 1b)                                                 495,064            327,299
Working Capital Fund (see Exhibit 1c)                                   567,617            673,112
Other Non-Personnel (see Exhibit 1d)                                  1,015,379            659,966
Other Direct                                                            100,000            100,000
SOL                                                                   1,850,000          1,820,000
Total Compiled Cost                                                 $14,431,107       $12,229,775

Source: Costs for FY 2010 and the 9-month period ended June 30, 2011, were compiled from OSHA and
Departmental records. See Appendix B for methodology.




                                                                         OSHA Whistleblower Cost
                                                7                      Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              8                       Report No. 22-12-014-10-105
                                              U.S. Department of Labor – Office of Inspector General



                                                                   Exhibit 1a
Federally Operated Whistleblower Program Compiled Salary and Personnel
Benefits


                               FY 2010                           9 Months Ended June 2011
                                            Personnel                               Personnel
   Region        FTE         Salary          Benefits        FTE         Salary       Benefits
 1                 8        $ 758,094       $ 210,494          9        $ 641,865    $ 174,898
 2                12           976,612         288,436        13           766,305      225,941
 3                 7           522,208         156,413         8           446,224      131,521
 4                14         1,236,697         305,735        14           922,128      240,861
 5                16         1,371,199         397,452        19         1,205,052      351,104
 6                 8           708,710         203,073        10           632,334      184,727
 7                 6           477,327         133,381        7            421,348      126,749
 8                 6           500,722         150,758        7            445,370      136,307
 9                 6           568,659         156,051        6            448,270      129,067
 10                4           369,976         106,885        5            341,468      101,980
 National
 Office            5           642,606          161,559       5             454,491         121,388
 Total            92        $8,132,810       $2,270,237      103         $6,724,855      $1,924,543

Source: Costs for FY 2010 and the 9-month period ended June 30, 2011, were compiled from OSHA and
Departmental records. See Appendix B for methodology.




                                                                         OSHA Whistleblower Cost
                                                9                      Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              10                      Report No. 22-12-014-10-105
                                          U.S. Department of Labor – Office of Inspector General



                                                                                   Exhibit 1b
Federally Operated Whistleblower Program Compiled Travel Costs

                                                 Travel

                                                      9 Months Ended
                  Region             FY 2010             June 2011
                    1           $         29,013     $         12,098
                    2                     27,191               15,065
                    3                     75,085               61,326
                    4                     70,000               44,518
                    5                     73,012               75,398
                    6                     58,253               46,696
                    7                     47,000               18,788
                    8                     34,676               14,992
                    9                     27,203               10,481
                    10                    32,160               15,210
              National Office             21,471               12,727
                   Total        $        495,064     $       327,299
            Source: Costs for FY 2010 and the 9-month period ended June
            30, 2011, were compiled from OSHA and Departmental records.
            See Appendix B for methodology.




                                                                     OSHA Whistleblower Cost
                                           11                      Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              12                      Report No. 22-12-014-10-105
                                                        U.S. Department of Labor – Office of Inspector General



                                                                   Exhibit 1c
Federally Operated Whistleblower Program Compiled Working Capital Fund
Costs

                                                 Working Capital Fund 2
                                            FY 2010                  9 Months Ended
                                                                        June 2011
                   Region
                     1               $            49,358         $              58,816
                     2                            74,037                        84,956
                     3                            43,188                        52,281
                     4                            86,376                        91,491
                     5                            98,716                       124,166
                     6                            49,358                        65,351
                     7                            37,019                        45,746
                     8                             37,019                       45,746
                     9                             37,019                       39,210
                     10                           24,679                        32,675
               National Office                    30,848                        32,674
                    Total            $           567,617         $             673,112

               Source: Costs for FY 2010 and the 9-month period ended June
               30, 2011, were compiled from OSHA and Departmental records.
               See Appendix B for methodology.




2
  The Working Capital Fund maintains and operates a program of centralized services in the national office and the
field. The Fund is paid in advance by the agencies, bureaus, and offices for which centralized services are provided
at rates which return the full cost of operations.



                                                                                       OSHA Whistleblower Cost
                                                         13                          Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              14                      Report No. 22-12-014-10-105
                                                      U.S. Department of Labor – Office of Inspector General



                                                                  Exhibit 1d
Federally Operated Whistleblower Program Compiled Other Non-Personnel Costs

                                                       Other Non­ Personnel3
                                                                         9 Months Ended
                                                 FY 2010                    June 2011
                          Region
                            1            $              54,026       $              59,328
                             2                          84,963                      86,404
                             3                          41,394                      49,524
                             4                          73,525                      64,680
                             5                          93,626                      95,223
                             6                          60,867                      58,878
                             7                          37,767                      41,377
                             8                          39,997                      36,331
                             9                          70,912                      52,333
                            10                          38,444                      39,098
                      National Office                  419,858*                     76,790
                           Total         $           1,015,379       $             659,966

                      Source: Costs for FY 2010 and the 9-month period ended June 30,
                      2011, were compiled from OSHA and Departmental records.
                      National Office costs for FY 2010 include a $314,226 allocation of a
                      one-time $6.5 million OSHA Information System development
                      contract specific to the Enforcement Directorate. See Appendix B for
                      methodology.

Other Non-Personnel Costs:
   1. Rental to General Services Administration
   2. Department of Homeland Security Surcharge
   3. Postage
   4. Telecommunication
   5. Supplies and Materials
   6. Miscellaneous Services




3
    OSHA’s Whistleblower Program was included as part of the Enforcement Directorate for FY 2010 and for the
    9 months ended June 30, 2011. Whistleblower Program other non-personnel costs were estimated based on the
    number of Whistleblower Program FTE multiplied by the average other non-personnel costs per Enforcement
    Directorate FTE.

                                                                                   OSHA Whistleblower Cost
                                                        15                       Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              16                      Report No. 22-12-014-10-105
                                              U.S. Department of Labor – Office of Inspector General



                                                                      Exhibit 2
Extrapolation of Federally Operated Whistleblower Program Costs FY 2011

                                                                  Caseload
        Description             FY 2011            6                  7                   8
Total FY 2011 Cost1           $ 16,306,367    $ 16,306,367       $ 16,306,367        $ 16,306,367
Less: National Office Cost         930,761
Less: SOL Cost                   2,426,667
Total Regional Cost           $ 12,948,939
FY 2011 Regional FTE                    98
Cost Per FTE                  $    132,132    $   132,132       $        132,132     $     132,132
Additional FTE                                       x 58                   x 53              x 49
Additional Cost                               $ 7,663,656       $      7,002,996     $   6,474,468
Compiled Program Cost
at Specified Caseloads                        $ 23,970,023      $ 23,309,363         $ 22,780,835

Calculation of Additional FTE Required
Caseload per Investigator                     6                        7                    8
Total FY 2011 Caseload2                                4,100               4,100                4,100
Average Number of Cases
Completed Per Investigator3              22                       22                   22
Total FTE Required                    x 146                    x 141                x 137
Total Cases Completed                                  3,212               3,102                3,014
Ending Caseload                                          888                 998                1,086
Current Investigator FTE4              (88)                     (88)                 (88)
Additional FTE Required                  58                       53                   49
The extrapolation of additional FTE investigator positions to meet the various caseloads
specified by the requestors was based on the assumptions detailed in Appendix B of
this report. Any changes in these assumptions could have a material effect on the
extrapolated costs.

Notes
   1.	
         FY 2011 cost is annualized based on costs for 9 months ended June 30, 2011.
         ($12,229,775 ÷ 9 × 12 = $16,306,367)
   2.	
         Beginning inventory of 1,655 cases as of October 1, 2010 plus 2,445 new cases
         received during FY 2011. (1,655 + 2,445 = 4,100)
   3.	
         The average number of completed cases per investigator is based on the 1,937
         completed cases reported in IMIS for FY 2011 divided by 88 regional
         non-supervisory investigators. (1,937 ÷ 88 = 22)
   4.	
         Current investigator FTE consists of 98 regional FTE less 10 regional supervisory
         investigators. (98 − 10 = 88)



                                                                             OSHA Whistleblower Cost
                                                  17                       Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              18                      Report No. 22-12-014-10-105
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                          OSHA Whistleblower Cost
                19                      Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        OSHA Whistleblower Cost
              20                      Report No. 22-12-014-10-105
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

In November 2010, the Honorable George Miller, Ranking Member, Committee on
Education and the Workforce, and the Honorable Lynne Woolsey, Ranking Member,
Subcommittee on Workforce Protections requested that the OIG: (1) compile and report
the direct and indirect cost of operating the Whistleblower Program during FY 2010, and
(2) extrapolate what the direct and indirect cost of operating the Whistleblower Program
during FY 2010 would have been had whistleblower investigators operated with an
average caseload of six to eight open cases. See Appendix D for a copy of the request.

OSHA is responsible for investigating complaints of discriminatory actions taken against
employees for exercising rights afforded them under the Occupational Safety and
Health Act and 20 other whistleblower statutes under OSHA’s jurisdiction. These
statutes cover workplace safety complaints filed under Section 11(c) of the OSH Act, as
well as complaints related to the environment, consumer products, nuclear safety,
financial systems, food safety, and transportation infrastructure. Enforcement
responsibilities for the Whistleblower Program vary by state/territory (see Table 1 on the
following page).

A 2010 GAO audit of the Whistleblower Program recommended OSHA track
whistleblower program expenses, including FTE, separately from other OSHA
programs, and annually report those expenses to Congress. In response to that report,
OSHA conducted an internal review that examined national and regional program
structures, operational procedures, investigative processes, budget, equipment, and
personnel issues to improve program transparency and accountability. OSHA’s
Assistant Secretary reported that, based on GAO’s findings and recommendations and
OSHA’s internal review, starting in FY 2012 the Whistleblower Program will report
directly to the Assistant Secretary instead of being housed under the Directorate of
Enforcement. He also stated OSHA was planning to establish a separate line item for
the Whistleblower Program to better track and hold accountable its activities and
accomplishments.

A recent OIG audit (Report No. 02-10-202-10-105, issued September 30, 2010) found
that OSHA had not always ensured that complainants received appropriate
investigations under the Whistleblower Protection Program. The audit estimated that 80
percent of applicable investigations under OSHA 11(c), the Sarbanes-Oxley Act and the
Surface Transportation Assistance Act did not satisfy one or more of eight elements
from OSHA’s Whistleblower Investigations Manual. These eight elements include
actions, such as conducting a formal interview with complainant and interviewing (or
attempting to interview) all pertinent complainant witnesses, that are essential to ensure
that complainants receive appropriate investigations.




                                                                      OSHA Whistleblower Cost
                                            21                      Report No. 22-12-014-10-105
                                             U.S. Department of Labor – Office of Inspector General



Table 1 - Whistleblower Program Responsibilities
                                11(c)        11(c)       All Other
                               Public     Private    Whistleblower
State/Territory            Employees employees            Statutes
Alabama                       Federal      Federal         Federal
Alaska                          State       State          Federal
American Samoa                Federal      Federal         Federal
Arizona                         State       State          Federal
Arkansas                      Federal      Federal         Federal
California                      State       State          Federal
Colorado                      Federal      Federal         Federal
Connecticut                     State      Federal         Federal
Delaware                      Federal      Federal         Federal
District of Columbia          Federal      Federal         Federal
Florida                       Federal      Federal         Federal
Georgia                       Federal      Federal         Federal
Guam                          Federal      Federal         Federal
Hawaii                          State       State          Federal
Idaho                         Federal      Federal         Federal
Illinois                        State      Federal         Federal
Indiana                         State       State          Federal
Iowa                            State       State          Federal
Kansas                        Federal      Federal         Federal
Kentucky                        State       State          Federal
Louisiana                     Federal      Federal         Federal
Maine                         Federal      Federal         Federal
Maryland                        State       State          Federal
Massachusetts                 Federal      Federal         Federal
Michigan                        State       State          Federal
Minnesota                       State       State          Federal
Mississippi                   Federal      Federal         Federal
Missouri                      Federal      Federal         Federal
Montana                       Federal      Federal         Federal
Nebraska                      Federal      Federal         Federal
Nevada                          State       State          Federal
New Hampshire                 Federal      Federal         Federal


                                                                        OSHA Whistleblower Cost
                                              22                      Report No. 22-12-014-10-105
                                             U.S. Department of Labor – Office of Inspector General



Table 1 - Whistleblower Program Responsibilities
                                11(c)        11(c)       All Other
                               Public     Private    Whistleblower
State/Territory            Employees employees            Statutes
New Jersey                      State      Federal         Federal
New Mexico                      State       State          Federal
New York                        State      Federal         Federal
North Carolina                  State       State          Federal
North Dakota                  Federal      Federal         Federal
Ohio                          Federal      Federal         Federal
Oklahoma                      Federal      Federal         Federal
Oregon                          State       State          Federal
Pennsylvania                  Federal      Federal         Federal
Puerto Rico                     State       State          Federal
Rhode Island                  Federal      Federal         Federal
South Carolina                  State       State          Federal
South Dakota                  Federal      Federal         Federal
Tennessee                       State       State          Federal
Texas                         Federal      Federal         Federal
Utah                            State       State          Federal
Vermont                         State       State          Federal
Virgin Islands                  State      Federal         Federal
Virginia                        State       State          Federal
Washington                      State       State          Federal
West Virginia                 Federal      Federal         Federal
Wisconsin                     Federal      Federal         Federal
Wyoming                         State       State          Federal




                                                                        OSHA Whistleblower Cost
                                              23                      Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              24                      Report No. 22-12-014-10-105
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The objectives of the audit as requested by Congressman Miller and Congresswoman
Woolsey were to:

        1. Compile the cost of operating the federally operated Whistleblower Program
           for FY 2010 and the 9-month period ended June 30, 2011, and
        2. Extrapolate the cost of operating the federally operated Whistleblower
           Program for FY 2011 assuming whistleblower investigators operated with an
           average caseload of eight, seven, and six cases.

Scope

This performance audit was performed at OSHA headquarters in Washington, DC. Our
audit covered FY 2010 and a 9-month period of FY 2011, from October 1, 2010, through
June 30, 2011. We used annualized costs for FY 2011 based on costs through
June 30, 2011, in our extrapolation objective. As part of our extrapolation, we used
performance information from IMIS for the year ended September 30, 2011.

Our compilation included the following types of costs: salary and personnel benefits,
including cost estimates provided by SOL; travel; working capital fund; and other
non-personnel costs (rent, Department of Homeland Security surcharge, postage,
telecommunication, supplies and materials, and miscellaneous services). The
compilation did not include whistleblower program incurred by the 27 states that operate
their own worker safety and health programs. Twenty-two (22) of these states conduct
all whistleblower investigations under Section 11(c) of the Occupational Safety and
Health Act, and five (Connecticut, Illinois, New Jersey, New York, and Virgin Islands)
provide 11 (c) investigations for public sector employees only. OSHA could not provide
the costs incurred by these states because it does not separately identify state grant
funds based on specific programs, and states do not separately report their use of grant
funds by specific programs. The 27 states conduct whistleblower investigations under
Section 11(c) of the Occupational Safety and Health Act only; investigations of
complaints filed under the 20 other whistleblower statutes within OSHA’s jurisdiction are
conducted by Federal OSHA staff.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for the
results presented based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis the results of this audit.

The objectives of our audit did not require a verification of costs to underlying
documentation. The costs presented in the report were based on the best available

                                                                     OSHA Whistleblower Cost
                                           25                      Report No. 22-12-014-10-105
                                           U.S. Department of Labor – Office of Inspector General



information OSHA and SOL could provide or that could be obtained from DOL financial
management systems. We performed certain procedures to determine the
completeness and reasonableness of those costs, including performing analytical
procedures and making inquiries of OSHA personnel. However, these procedures are
substantially less in scope than a financial statement audit, the objective of which is the
expression of an opinion regarding the fair presentation of the financial information
presented taken as whole. Accordingly, we do not express such an opinion. However,
based on the procedures we performed, we are not aware of any material modifications
that should be made to the financial information presented in Exhibits 1 through 1d.

The extrapolation of additional FTE investigator positions to meet the various case load
levels specified by the requestors was based on certain assumptions discussed in a
subsequent section of this Appendix. Any changes in these assumptions could have a
material effect on the extrapolated costs. It was not within the scope of our audit to give
an opinion on what the appropriate level of staffing and funding for the Whistleblower
Program should be.

Methodology

To accomplish our objectives, we obtained an understanding of OSHA’s policies and
procedures governing identifying and reporting Federal Whistleblower Program costs for
FY 2010 and the 9–month period ended June 30, 2011.

We relied on computer-processed data contained in PeoplePower and the New Core
Financial Management System (NCFMS) for a majority of the compiled costs (salary,
benefits, working capital fund and other non-personnel costs). To assess the reliability
of this data, we relied on the work performed by KPMG LLP, the independent public
accounting firm contracted by the OIG, on the Department’s financial statements for
FY 2010 and FY 2011. We also assessed data for reasonableness based on
information developed from data provided by regional and national office management
and knowledge of cost accounting standards used in federal financial accounting and
reporting. In addition, we verified NCFMS information received from OSHA by
independently recreating selected data files from NCFMS. Although we did not verify
SOL-provided costs related to Whistleblower Program costs expended by that agency,
we performed a reasonableness test of the information provided by reviewing the SOL
documents used to compile the costs.

We also used data from IMIS in our extrapolation. To assess that data, we obtained the
IMIS database and tested the system calculations of reports used in our audit.

We concluded the data were sufficiently reliable to be used in performing the
compilation and the extrapolations necessary to meet the audit’s objectives.




                                                                      OSHA Whistleblower Cost
                                            26                      Report No. 22-12-014-10-105
                                          U.S. Department of Labor – Office of Inspector General




Compiling Costs

In planning and performing our objective of compiling Federal Whistleblower Program
costs, we used interviews, state grant file reviews, surveys of regional offices, reviews
of budget justification documents, and examination of whistleblower costs available in
the Department of Labor’s (DOL) financial management systems and OSHA’s national
and regional offices to compile costs since OSHA did not separately account for
Whistleblower Program costs. Our methodology for compiling costs is discussed below.

   1. Salary and benefits were developed by:

      •  obtaining employee listings from the regions and the national office budget
         officer and obtaining investigator position classification codes,
      • obtaining regional office management representation to the validity of the
         information provided,
      •	 identifying salary costs found in PeoplePower,
      •	 comparing salary and benefit costs from PeoplePower to estimated costs
         developed using employee listings provided by OSHA and a benefit rate used
         by OSHA in its FY 2012 budget justification document, and
      •	 determining the number of FTE used by the Whistleblower Program for FY
         2010 and for the 9-month period ending June 30, 2011, from departmental
         payroll records.

   2. Working capital fund and other non-personnel costs were compiled by:

      •	 identifying Enforcement Directorate costs that would apply to all enforcement
         activities, including the Whistleblower Program,
      •	 obtaining Enforcement Directorate financial activity for FY 2010 and the
         9-month period ended June 30, 2011, in NCFMS,
      •	 applying an average Enforcement Directorate rate to Whistleblower Program
         regional and national office FTE, and
      •	 obtaining OSHA management representation as to the validity of the type of
         costs that should be used as other non-personnel costs.

   3. Travel costs were complied by:

      •   obtaining travel costs data from OSHA’s regional offices and comparing it to
          the Department’s travel system (E2 Solutions), and
      •   obtaining regional office management representation as to the validity of the
          costs provided.

   4. Other direct costs were obtained from the regional offices without verification.




                                                                     OSHA Whistleblower Cost
                                           27                      Report No. 22-12-014-10-105
                                          U.S. Department of Labor – Office of Inspector General



Extrapolation of Costs

To address the Congressional request, we extrapolated Whistleblower Program costs
based on an assumption of limiting caseloads to six to eight per investigator. We
calculated the number of FTE that would be required to complete FY 2011 cases by
using the number of cases each investigator completed during FY 2011 and a caseload
of 6 to 8 per investigator at year end. We calculated the additional costs of the program
by applying the average cost of Whistleblower Program regional investigators to the
number of additional investigators needed under each reduction assumption.

Assumptions for the Extrapolation of Additional FTE Investigator Positions

1. The number of cases OSHA receives remains the same as the number received for
   FY 2011.
2. The distribution of case types among the 21 different whistleblower statutes under
   OSHA’s jurisdiction (e.g., Section 11 (c) Occupational Safety and Health Act,
   Sarbanes Oxley Act, or Surface Transportation Assistance Act) remains the same as
   it was in FY 2011.
3. The distribution of case completion types (e.g., withdrawn, dismissed, settled, merit)
   remains the same as it was in FY 2011.
4. No additional whistleblower statutes are added to OSHA’s jurisdiction.
5. All investigators, including new investigators, would be able to complete the same
   average number of cases.
6. No additional OSHA staff would be needed in its national office and no additional
   supervisors would be needed in its regional offices.
7. SOL costs would remain at a constant level based on costs for the 9-month period
   ended June 30, 2011. We made this assumption because there was insufficient
   information to determine the effect an increase in the rate of completing
   whistleblower case investigations would have on the need for legal assistance.
8. Training costs would remain at a constant level based on cost for the 9-month period
   ended June 30, 2011. We made this assumption because there was insufficient
   information to determine the amount of additional training costs that may be required
   for new investigators.
9. The extrapolation assumes that the average time expended on a case will remain
   the same as it was in FY 2011. We did not determine the amount of time it should
   take to properly complete a case. As discussed in Appendix A, a recent OIG audit
   (Report No. 02-10-202-10-105, issued September 30, 2010) found that OSHA had
   not always ensured that complainants received appropriate investigations under the
   Whistleblower Protection Program.

Criteria

Handbook of Federal Accounting Standards and Other Pronouncements, As Amended,
issued by the Federal Accounting Standards Advisory Board.




                                                                     OSHA Whistleblower Cost
                                           28                      Report No. 22-12-014-10-105
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations


DOL                          Department of Labor

FTE                          Full Time Equivalent

FY                           Fiscal Year

GAO                          Government Accountability Office

IMIS                         Integrated Management Information System

NCFMS                        New Core Financial Management System

OIG                          Office of Inspector General

OSHA                         Occupational Safety and Health Administration

SOL                          Office of the Solicitor of Labor

Whistleblower Program        Whistleblower Protection Program




                                                                OSHA Whistleblower Cost
                                      29                      Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              30                      Report No. 22-12-014-10-105
                                  U.S. Department of Labor – Office of Inspector General



                                                               Appendix D
Request Letter from Congressman Miller and Congresswoman Woolsey




                                                             OSHA Whistleblower Cost
                                   31                      Report No. 22-12-014-10-105
U.S. Department of Labor – Office of Inspector General




                           OSHA Whistleblower Cost
 32                      Report No. 22-12-014-10-105
                                U.S. Department of Labor – Office of Inspector General



                                                                       Appendix E
OSHA Response to Draft Report




                                                           OSHA Whistleblower Cost
                                 33                      Report No. 22-12-014-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        OSHA Whistleblower Cost
              34                      Report No. 22-12-014-10-105
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix F
Acknowledgements

Key contributors to this report were Rogelio Alejandro-Cisneros, Joe Donovan, Johanna
Nathanson, Michael Powell, and Stephen Fowler.




                                                                   OSHA Whistleblower Cost
                                         35                      Report No. 22-12-014-10-105
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:     1-800-347-3756
         202-693-6999

Fax:      202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506             

         Washington, D.C. 20210 

